No.

20 -1W>

3fa®&e

Supreme Court of tlie flHmteb States
LIBBY A. DEMERY,
Petitioner,
v.
DEPARTMENT OF ARMY,
Respondent.

On Petition For A Writ Of Mandamus
To The United States Court Of Appeals
For The Federal Circuit

PETITION FOR A WRIT OF MANDAMUS

Libby A. Demery
Petitioner, Pro Se
6103 Manor Road
Clinton, MD 20735
(202) 207-5446

RECEIVED
DEC - 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED
(1) Whether the Supervisory Power of this Court in­
voked recall of the mandate of Federal Circuit to
vacate an unreviewed, Merits Systems Protection
Board (MSPB), Administrative Judge (AJ) deci­
sion containing procedural errors, failure to apply
the law to facts of case and unsupported by sub­
stantial evidence, effecting the Petitioner’s rights,
under the Whistleblower Protection Act (WPA). 5
C.F.R. Section 1201.111(b).
(2) Whether the MSPB AJ illegally rejected the WPA
appeal because it was supported by a preponder­
ance of direct evidence proving the impermissible
retaliatory motive played a motivating part in ad­
verse personnel action. McDonnell Douglas frame­
work not applicable.
(3) Whether the MSPB and Federal Circuit erroneous
focus on prima facie case caused a failure to decide
the ultimate factual issue of whether the agency
intentionally retaliated against the appellant.

11

STATEMENT OF RELATED CASES
•

Demery v. Dept of Army, MSPB No. PH-1221-180105-W-l, Initial Decision, July 27, 2018, final de­
cision, June 21, 2019.

•

Demery v. Dept of Army, No. 19-2282, Court of
Appeals for the Federal Circuit, Judgment entered
April 9, 2020

•

Demery v. Dept of Army, No. 19-2282, Court of
Appeals for the Federal Circuit, Petition for panel
rehearing and rehearing en banc motion granted,
June 1, 2020

•

Demery v. Dept of Army, No. 19-2282, Court of
Appeals for the Federal Circuit, Petition for panel
rehearing and rehearing en banc denial, July 1,
2020. Mandate to issue July 8, 2020.

•

Demery v. Dept of Army, No. 19-2282, Court of
Appeals for the Federal Circuit, Petition to recall
of court mandate, July 7, 2020.

•

Demery v. Dept of Army, No. 19-2282, Court of
Appeals for the Federal Circuit, Petition to recall
court mandate denied, July 16, 2020.

Ill

TABLE OF CONTENTS
Page
Questions Presented......................................

1

Statement of Related Cases...........................

n

Table of Contents...........................................

in

Table of Authorities........................................

IV

Opinions...........................................................

1

Statement of Jurisdiction.............................

1

Relevant Provisions Involved.......................

1

Statement of the Case...................................

2

Reasons for Granting the Writ of Mandamus

15

Conclusion........................................................

19

APPENDIX
United States Court of Appeals for the Federal
Circuit, Opinion, April 9, 2020......................... App. 1
United States Merit Systems Protection Board,
App. 13
Initial Decision, July 27, 2018
United States Court of Appeals for the Federal
App. 42
Circuit, Order, July 16, 2020
United States Court of Appeals for the Federal
Circuit, Order Denying Petition for Rehear­
App. 44
ing, July 1, 2020

IV

TABLE OF AUTHORITIES
Page
Cases
Chevron U.S.A., Inc. v. Natural Resources De­
fense Council, Inc., 467 U.S. 837 (1984)............ 2,13
Price Waterhouse v. Ann Hopkins, 490 U.S. 228,
109 S. Ct. 1775, 104 L. Ed. 2d 268 (May
1989)........................................................................ 12,15
Trans World Airlines Inc v. Thurston, 469 U.S.
111(1985)............................................................... 8,15
Tudor v. Dept of Treasury, 639 F. 3d 1362 (Fed.
Cir. 2011)................................................................

9

USPS Bd. Of Governors v. Aikens, 460 U.S. 711
5, 14,15,16
(1983)

1
OPINIONS
Decision of Merit Systems Protection Board
(MSPB), June 21, 2019 Final decision United States
Court of Appeals for the Federal Circuit (April 9,2020)
Order Denying Rehearing, Rehearing en Banc,
United States Court of Appeals for the Federal Circuit
(July 1, 2020).
Order, Denial of Recall of mandate, United States
Court of Appeals for the Federal Circuit (July 16,2020)

STATEMENT OF JURISDICTION
The Court of Appeals entered judgment on April 9,
2020. App. 1. The court denied a timely petition for re­
hearing en banc on July 1, 2020. App. 44. This Court
has jurisdiction under 28 U.S.C. § 1651(a).

RELEVANT PROVISIONS INVOLVED
5 C.F.R. Section 1201.111(b) requiring the Ad­
ministrative Judge (AJ) initial decision “contain find­
ings of fact and conclusions of law upon all material
issues of fact and law presented.” See also 5 U.S.C. Sec­
tion 7703(c) requiring decision be supported by “sub­
stantial evidence.”
STATUTES INVOLVED
5 U.S.C. § 2302(b)(8)......
5 U.S.C. §§ 3317 & 3318 .

Page
9
8

2

5 U.S.C. § 1201.111(b)........
5 U.S.C. § 1292(b)...............
5 U.S.C. § 7703(c)...............
28 U.S.C. §1254(1)..............
28 U.S.C. § 1331.................
28 U.S.C. § 1361.................
Administrative Procedures
Act (APA) § 702..............
Chevron Deference............

16
18
16
30
30

31
20

17

STATEMENT OF THE CASE
Libby Demery applied for the competitive an­
nouncement #NEHT10457276D, Management Ana­
lyst, GS-343-11, located at the National Guard Bureau,
Arlington, VA., was rated/ranked, placed on OPM cer­
tificate of eligible, referred to a panel of three author­
ized to interview and select the best qualified for the
position.
The panel selected Demery for the position and
Mr. Tony Denham contacted Demery on November 3,
2010, informed her of her selection and made an in­
terim tentative job offer (TJO) in compliance with
agency policy and informed her Civilian Personnel Ad­
visory Center (CPAC) would contact her with official
TJO and final job offer (FJO) and subsequent appoint­
ment. CPAC never contacted Demery.

3

WHISTLEBLOWER PROTECTION
ACT (WPA) CLAIM
The appellant filed IRA/WPA appeal with MSPB,
after exhausting her administrative remedies with Of­
fice of Special Counsel (OS). OSC failed to investigate
prohibited personnel practices and WPA claims and di­
rected Demery to file IRA/WPA appeal with MSPB.
Demery alleges, Department of Army retaliated
against her, when it refused to comply with the binding
federal competitive1 hiring statute at the “appoint­
ment” and hiring stage of the process, take the Minis­
terial step. Sec 3317 & 3318 and 2302(b)(8). WPA
personnel actions are against the whistleblower and
applicable law, rule, or regulation.
ADMINISTRATIVE JUDGE (AJ)
DISBELIEF OF DIRECT EVIDENCE
The unreviewed AJ decision was obtained without
procedures required by law, rule, or regulation having
been followed; and unsupported by substantial evi­
dence. The amount of legal and factual misrepresenta­
tions are massive and has complicated the Pro Se case.
The AJ made legal error and exceeded bounds
Congress did not intend in his interpretation and ap­
plication of the federal hiring statute to circumstances
of this appeal, denying Demery entitlement and re­
moving agency liability. The decision is not in accord­
ance with law and cannot stand.

4
The AJ in his general order dated April 19th, three
months into pleadings, makes it clear he does not be­
lieve the direct evidence presented in the reliable
CPAC RPA Tracker and reserves fact-finding until af­
ter the hearing. The AJ states as follows:
“At the outset, I again remind the appellant
that she filed an individual right of action
(IRA) appeal under the Whistleblower Protec­
tion Act. That fact determines what issues are
(and are not) relevant, and the hearing will be
entirely focused on the relevant issues. I also
remind the appellant that no “facts” have been
proven before me as of now. Fact-finding oc­
curs after hearing the sworn testimony at the
hearing. As to the appellant’s discovery con­
cerns, I refer her to the Board’s regulations.”
See MSPB Tab 39.
The AJ general order, denying Demery’s objections
to prehearing summary, reconsideration of witnesses,
request to postpone hearing until all deficiencies were
met comes six days prior to the hearing and two days
after agency files motion to dismiss for failure to state
a claim.
The AJ states;
“the personnel action at issue is the non-selec­
tion/failure to appoint.” And “the mechanics of
the selection will come into play as one of the
Carr factors only if the appellant establishes
that she made a disclosure and it was a con­
tributing factor to the agency selection.” See
MSPB Tab 53.

5

PRE-MATURE HEARING ON THE MERITS
The AJ failed to properly establish jurisdiction on
claims at the second prong prior to hearing on the mer­
its: failing to identify the precise personnel action un­
der Section 2302(B)(8); determine whether disclosures
were protected under abuse of authority standard; and
failure to apply the federal hiring statute to the cir­
cumstances of the case prior to the hearing. Sections
3317 & 3318.
The unreviewed initial MSPB AJ decision became
the final decision and the decision is in violation of
5 C.F.R. Section 1201.111(b) requiring the Adminis­
trative Judge (AJ) initial decision “contain findings of
fact and conclusions of law upon all material issues of
fact and law presented.” See also 5 U.S.C. Section
7703(c) requiring decision be supported by “substan­
tial evidence.” Vacate or Reversable error.
MISTAKEN VIEW OF LAW
As in USPS BD. Of Govs. v. Aikens, 460 U.S. 711
(1983), Because the case has been tried on the merits,
it is surprising to find the parties and the Court of Ap­
peals still addressing the question of whether Demery
made out a prima facie case. However, in this case
Demery presents direct evidence of retaliation and
doesn’t require establishment of a prima facie case. Va­
cate or Reversable error.

6
AGENCY’S UNCLEAN HANDS
The AJ states, the “agency did not raise a laches
defense.” The agency did not raise laches defense due
to unclean hands.
Specifically, fraudulent concealment of competi­
tive selection, “willful” non-compliance of binding stat­
ute, failure to “appoint” after November 10, 2010, OPM
authorization and HR Supervisor, termination of en­
tire process without approval from Office of Personnel
Management (OPM). 5 U.S.C. Section 3317 & 3318 in
violation of the prohibited personnel practice statute,
5 U.S.C. Section 2302(b)(8), abuse of authority.
Fraudulent concealment due to perceiving Demery as a whistleblower on the agency pretextual use of
the PPP requisition, in order to grant an unauthorized
employment advantage to another former agency em­
ployee. 5 U.S.C. Section 2302(b)(6)(prohibited person­
nel practice).
Under the WPA the agency non-retaliatory reason
or explanation for its adverse personnel action must be
legally sufficient, therefore, the use of the closed PPP
is not supported by substantial evidence, law, rule, or
regulation.
CPAC RPA TRACKER DIRECT EVIDENCE
It is undisputed and substantiated that the CPAC
Request for Personnel Action (RPA) Tracker is the only
reliable record of Civilian Personnel Advisory Center
(CPAC) personnel actions.

7
The RPA Tracker shows the exact sequence of per­
sonnel actions:
(1) the Priority Placement Program (PPP) PPP
requisition opened first and closed prior to
Sept 14, 2010 (2) the merit promotion Closed:
Aug 27,2010 and finally (3) the Delegating Ex­
amining Unit (DEU)/competitive job vacancy
Closed: Sept 7, 2010.
The RPA Tracker is very important because the
responsible officials: HR, vacancy advisor, Ms. Rose
Plummer and her HR Supervisor, Ms. Lydia Langley
remained anonymous and fraudulently concealed per­
sonnel actions. The document confirms Nov 3rd com­
petitive selection of Demery in proper sequence, after
closure of the PPP requisition prior to Sept 14th. Also,
an important entry, November 10th, OPM DEU au­
thorization of Demery as “Selectee” and to receive a
TJO and FJO from vacancy advisor, Ms. Plummer. Ms.
Plummer never provided official notification of OPM
approval nor did she provide the authorized TJO/FJO
and appointment.
WPA TRIGGERED
The IRA/WPA, retaliation is triggered at this point
in the Competitive1 hiring process, Demery is denied
1 «
The appointing authority “shall” select for appointment to
each vacancy from the highest three eligible available for appoint­
ment on the certificate furnished under section 3317(a),” 5 U.S.C.
§ 3318(a). If an appointing authority “proposes to pass over a pref­
erence eligible . . . such authority shall file written reasons with
Office of Personnel Management (OPM) . . . provide notification

8

an “appointment,” Authorized, November 10, 2010 by
OPM DEU and in accordance with 5 U.S.C. Sections
3317 & 3318. TWA v. Thurston, 469 U.S. Ill, 121
(1985)
WPA prohibits retaliation against applicants, or
former employees who reasonably believes the agency
conduct constitutes wrongdoing listed under 5 U.S.C.
Section 2302(b)(8), abuse of authority.
KNOWLEDGE/TIMING TEST
Under the WPA if jurisdiction is established via
knowledge/timing test, the agency will not be required
to make an appointment of Demery if it can prove it
would have taken the same action absent the protected
activity.
In conjunction with direct evidence, the record will
show, Demery also established Board jurisdiction and
contributing factors via the knowledge/timing test by
making a non-frivolous disclosure on Friday, Novem­
ber 19th to Selection official Mr. Denham who informed
her of CPAC’s (Plummer) consideration of a PPP to fill
the position. Demery made a protected disclosure of
her belief that the use of the PPP at this stage (ap­
pointment) of the hiring process (competitive), her in­
terview (panel) and interim TJO may be in violation of
law, rule, or regulation. Demery believed Mr. Denham
passed the disclosure on to CPAC, vacancy advisor,
to preference eligible . . . sustained by, the OPM for proper and
adequate reason under regulations prescribed by the office.”

9
Plummer and as showed on the RPA Tracker, Plum­
mer’s note of Monday, November 22, 2010, states:
“TJO will not be extended to Demery, there is
a well-qualified PPP match. Notified the PPP
team to extend a TJO.”
Demery’s testimony on her November 19th disclo­
sure was taken out of context by the AJ and the Cir­
cuit, the testimony verbatim in transcript does
evidence violation of federal hiring statute:
“the person he was talking to at CPAC told
him that they were considering placing a PPP
person in the position. And he said—well, he
didn’t say PPP, he said priority placement. So
whenever, you hear priority placement, you
assume that that person has priority over you
for some reason. So, I said, well, I think that
after the interview and you have offered me
the position, that this timing doesn’t seem
quite right for the PPP, because I thought that
is the first thing and would close before DEU
announcements are even referred to the selec­
tion official. So after we talked about that he
said he doesn’t know anything about HR,. . . .”
The Federal Circuit has previously held remand
when critical element of case is misconstrued. Tudor v.
Treasury, 639 F. 3d 1362 (Fed. Cir. 2011)
AGENCY REBUTTAL
The agency put forth, through the introduction of
evidence in its motions to dismiss, the reason for

10
refusing to “appoint/hire” Demery was the agency al­
leged PPP match of September 7, 2010.
Demery, supported by the CPAC RPA Tracker, re­
buts the reason as follows: There evidence on the RPA
Tracker shows the PPP closed and cleared prior to Sep­
tember 14, 2010 with no evidence of a PPP September
7,2010 match. The Tracker shows Demery competitive
selection occurred on November 3, 2010 and the OPM
DEU approved Demery’s selection and authorized
TJO/FJO and subsequent appoint, November 10,2010.
DECISIONMAKER BOMBSHELL TESTIMONY
In support of the direct evidence on the RPA
Tracker, Decisionmaker, HR Supervisor, Ms. Lydia
Langley testifies to an impermissible motive, that she
applied the PPP after it closed in order to provide a
unauthorized employment advantage for another for­
mer employee, Mr. John Woods. Demery has also
shown direct evidence that an impermissible motive
played a motivating part in an adverse employment
decision.
Ms. Langley states after the following AJ question:
“Ms. Langley, If Mr. Wood matched this posi­
tion September 7,2010, why would he later be
placed and have been removed (Oct 22, 2010)
from the agency for some reason in the in­
terim? I’m just trying,
we’re trying to figure out what the chronology was.”

11
Ms. Langley testifies about illegal use of PPP, here
are her exact words:
“Okay, so he matched in September. From
what I understand, we may have missed that,
and that’s why we have to go back and look,
because I believe when—I believe what hap­
pened was,
but I was the supervisor, and
I believe that it was brought to my attention
that a selection was going to be made, but they
matched back
just saw that they have a
in September. And if I recall, I remember say­
ing, we need to clear that individual before we
can move any further ...” “Yes, Yes, I would
have to say that that- it was missed. It was not
done timely, I’ll put it that way.”
Demery on November 10th. Ms. Langley answer
rebutted by RPA Tracker when she states:
“She (Dixon) will let us know that a TJO can
be made, but we would go back to make sure,
because she would not know whether PPP is
cleared or closed. She would not know that.
She would let us know, go ahead, we can make
a TJO, then we would go back and make sure
anything
the PPP is cleared and closed,
like that before we can move on to make that
tentative job offer.”
The RPA Tracker alone provides direct evidence
that the officials, vacancy advisor, Ms. Plummer in col­
laboration with her HR supervisor, Ms. Langley upon
receipt of Demery’s competitive selection were moti­
vated by an impermissible motive to provide the Man­
agement Analyst, GS-343-11 position to significantly

12
younger former employee, Mr. John Woods. (ADEA
claim waived for Circuit appeal).
The granting of an unauthorized employment ad­
vantage for another former employee, Mr. Woods, un­
der the pretext of the PPP.
The record will show the agency is silent on this
allegation and Lack supporting evidence, Woods was
removed from the agency rolls and ineligible, October
22, 2010. The agency provided a TJO, November 22,
2010. However, Woods was not placed in the position
until January 3, 2010. Price Waterhouse v. Hopkins,
490 U.S. 228 (1989).
The AJ in an abuse of discretion in his absurd con­
struction of an official statutory competitive selection.
The AJ’s unreasonable interpretation of the statute
and erroneous finding of law to facts:
“I conclude that the appellant’s contentions
that she was (formally) selected for the posi­
tion and entitled to be appointed are baseless
on this record. There is some bandying of se­
mantics the appellant was “selected” by the
panel to be recommended to CPAC, but that
selection had no official weight and effect.
The appellant was not “selected” by CPAC
for a TJO and FJO, and that is the “selection”
of consequence. My finding on this issue
also moots a good portion of the appellants
retaliation claims related to the subsequent
litigation—notably that the agency kept
fraudulently concealing her “selection.

13
The AJ has no ‘discretion’ in determining what the
law is or applying the law to the facts. Thus, a clear
failure by the AJ to analyze or apply the law correctly
and consider her claim, will constitute an abuse of dis­
cretion. The AJ failed to include critical agency testi­
mony, failure to meet clear and convincing evidence, in
his decision that warrants corrective action for Demery.
Demery rebutted the PPP as illegitimate and re­
taliatory due to direct evidence in the RPA Tracker
showing the PPP had closed and cleared two-months
before Demery’s competitive selection and OPM au­
thorization to provide her TJO/FJO and subsequent
appointment, in according to the binding statute, her
appointment is non-discretionary under binding fed­
eral hiring statute.
FEDERAL CIRCUIT FINDING ON SELECTION
The federal circuit legal findings on the competi­
tive selection requires the AJ conclusion on the com­
petitive selection be set aside as clearly erroneous:
“The panel’s leader, Mr. Tony Denham, recom­
mended Ms. Demery as the “selectee” to the
CPAC. CPAC had the authority to then make
a tentative or final job offer to Ms. Demery.”
The Federal Circuit erred in granting deference in
the AJ unreasonable interpretation of the federal hir­
ing statute and not supported by the Chevron defer­
ence:

14
“If the intent of Congress is clear that is the
end of the matter; If Congress has spoken for
the court as well as the agency, must give ef­
fect to the unambiguous and expressed intent
of Congress.”
MSPB AJ FAILED TO DECIDE
ULTIMATE FACTUAL ISSUE
When the agency failed to persuade the AJ to dis­
miss the action for the agency failure to rebut Demery’s direct evidence of retaliatory animus, the AJ was
required to decide the ultimate factual issue. Whether
the agency intentionally retaliated against Demery.
Here the AJ erroneously focused on the question of
prima facie case which was not required in case of di­
rect evidence and if it had, it would have already
dropped from the appeal. U.S.P.S. BD of Govs. v. Aikens,
460 U.S. 711 (1983). Reversable error.
RULE 20.1 STATEMENT
The Writ of Mandamus must be issued as Peti­
tioner’s last resort, exceptional Whistleblower Protection
Act (WPA) appeal judgement on the merits (evaded
ultimate question, whether the agency intentionally
retaliated) denying ministerial action, statutory rights
denied by MSPB and affirmed by the Circuit. The writ
will prevent a miscarriage of justice.
The writ will invoke Supervisory Power aiding in
this Court’s jurisdiction, the U.S. Court of Appeals for
the Federal Circuits decision conflicts with circuits

15
application of mixed-motive/direct evidence v. McDon­
nell Douglas to retaliation claims and the circuit disre­
gards the Supreme Court previous rulings. USPS Bd.
Of Governors v. Aikens, 460 U.S. 711 (1983); Price Wa­
terhouse v. Hopkins, 490 U.S. 228 (1988): Trans World
Airlines Inc v. Thurston, 469 U.S. Ill, 121 (1985).

REASONS FOR GRANTING THE
WRIT OF MANDAMUS
The judicial system exists to resolve disputes, to
bring them to an end so that the litigants can return
to their normal affairs. To say that courts exist to re­
solve disputes tells only half the story, for courts exist
to resolve disputes correctly.
A motion to recall the mandate, finds its support
in the desire to reach a just result. “The recall of an
appellate mandate to avoid injustice is a continuation,
in the appellate sphere, of a deeply rooted equity juris­
prudence.”
Judges must be held accountable for decisions that
are clearly contrary to law, that were reached without
following the procedures that confer legitimacy and
credence upon judicial actions that represent an exer­
cise of discretion motivated by bad faith, or that reflect
repeated legal error that cannot be attributed to an
honest mistake.
Procedural rules should prevent the adversaries
from manipulating the rules in order to obtain private

16
advantages and ensure parties have a fair opportunity
to present their own case and consideration is made on
the presented case. Resolving cases “on the merits” re­
quires a resolution exercise of reason, by the tier of
fact.
The MSPB AJ and the Circuit has erected barriers
to proving the agency’s violation of the WPA and pro­
hibited personnel practice violations by failing to apply
appeal and appellant review procedures required by
law, rule, and regulations and vacant, reverse and/or
remand the MSPB AJ decision based on the absence of
substantial evidence, abuse of discretion, and not in ac­
cordance with the binding federal hiring statute.
Demery request this Court grant the writs in the
aid of jurisdiction under this Court’s Supervisory
power and in the interest of justice, and avoidance of a
miscarriage of justice. The case addresses circuit splits
on application of direct evidence or mixed motive to
whistleblower/retaliation cases before the Merit Sys­
tems Protection Board.
This is a case of first impression, containing direct
evidence rejected by the Administrative Judge (AJ)
who failed to also apply the burden shifting framework
or mixed motive framework. Subsequently, the plead­
ing which the agency set forth, its reason for failure to
appoint were rebutted by Demery’s direct evidence
were not addressed by the AJ prior to the pre-mature
or on the hearing on the merits.
As in the case of USPS BD of Governors v. Aikens,
460 U.S. 711 (1983), in order to avoid a miscarriage of

17
justice, this Court must vacate and remand. The MSPB
AJ and Federal Circuit have unnecessarily evaded the
ultimate question of retaliation vel non.
Demery’s IRA/WPA evidence provides the reason
to grant the writ of mandamus, is based on the failure
of the agency to take ministerial action, make “an ap­
pointment” to Demery. The “appointment” is supported
by evidence in the record, the Office of Personnel Man­
agement (OPM), November 10, 2010, authorization
and directive to CPAC officials; Ms. Rose Plummer and
HR supervisor, Ms. Lydia Langley to provide Demery a
TJO/FJO and appointment.
Demery has a clear right, under non-discretionary
binding statutes 5 U.S.C. sections 3317 and 3318 to her
OPM authorized appointment (ministerial). The De­
partment of the Army owes her a duty, and the only
relief available is via the writ of mandamus. See the
Administrative Procedure Act (APA).
The OPM directive is based on the most adjudi­
cated and regulated binding federal hiring statute and
supported by federal common law precedent. “If the in­
tent of Congress is clear that is the end of the matter,
if Congress has spoken for the Court as well as the
agency, must give effect to the unambiguous and ex­
pressed intent of Congress.”
Testimony by HR, Supervisor of her impermissible
motive, is fatal to the agency defense of its application
of the closed PPP to the OPM approved, statutory com­
petitive selection. The agency failed and is silenced, in
its rebuttal of the direct evidence requiring the MSPB

18
and the Federal Circuit to grant corrective action or
judgement as a matter of law.
To deny Demery, a meritorious litigant relief is un­
fair and a miscarriage of justice especially when the
denial stems from a court made policy to finality rather
than from substantive law. Allowing manifestly unjust
results to stand uncorrected also erodes public faith in
the judicial process.
This Court’s prior decisions demonstrate that the
plaintiff who shows that an impermissible motive
played a motivating part in an adverse employment
decision thereby places the burden on the defendant to
show that it would have made the same decision in the
absence of the unlawful motive.
Here, the MSPB, AJ and the Federal Circuit
evaded the ultimate question of retaliation, by its find­
ings of fact in favor of the Department of the Army. The
AJ and the Federal Circuit focused on the question of
prima facie case, rather than directly on the question
of retaliation.
Thus, the findings were influenced by its mistaken
view of the law; accordingly, the record is complete and
should be remanded so that the MSPB may decide
appropriate corrective action based on the direct evi­
dence before it that the Department of Army retaliated
against Demery and denied ministerial action.

19
CONCLUSION
Request the Court recall the mandate and grant
the writ of mandamus.
Respectfully submitted,
Libby A. Demery
Pro Se
6103 Manor Road
Clinton, Maryland 20735

